APPENDIX 2

App. No. _____
LC v. MG
On Application for Extension of Time
to File a Petition for Writ of Certiorari
to the Supreme Court of Hawaii

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

Electronically Filed
Supreme Court
SCAP-16-0000837
04-OCT-2018
IN THE SUPREME COURT OF THE STATE OF HAWAIʻI
08:35 AM
LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT AGENCY, STATE OF HAWAIʻI,
Respondents-Appellees.
SCAP-16-0000837
APPEAL FROM THE FAMILY COURT OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
OCTOBER 4, 2018
OPINION OF THE COURT BY McKENNA, J., AS TO PART III(B)
When it adopted a modified version of the 1973 Uniform
Parentage Act as Chapter 584 of the Hawaiʻi Revised Statutes
(“HRS”), the Legislature specifically deleted Section 5, which
contains language requiring a spouse to consent to artificial
insemination to establish parentage.

Accordingly, we hold that

a spouse cannot rebut the HRS § 584-4(a)(1) marital presumption
of parentage pursuant to HRS § 584-4(b) by demonstrating by
clear and convincing evidence a lack of consent to the other
spouse’s artificial insemination procedure.

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

In this case, all parties and the family court assumed that
a spouse can rebut the HRS § 584-4(a)(1) (2006) marital
presumption of parentage pursuant to HRS § 584-4(b) (2006) by
showing lack of consent.

However, party agreement as to a

question of law is not binding on this court, and does not
relieve us from the obligation to review questions of law de
novo.

See Hawaiian Ass’n of Seventh-Day Adventists v. Wong, 130

Hawaiʻi 36, 46, 305 P.3d 452, 462 (2013) (citing Chung Mi Ahn v.
Liberty Mut. Fire Ins. Co., 126 Hawaiʻi 1, 10, 265 P.3d 470, 479
(2011)); Chung, 126 Hawaiʻi at 10, 265 P.3d at 479 (“[P]arty
agreements on questions of law are not binding on a court.”)
(citing Beclar Corp. v. Young, 7 Haw. App. 183, 190, 750 P.2d
934, 938 (1988)); State v. Tangalin, 66 Haw. 100, 101, 657 P.2d
1025, 1026 (1983) (“[I]t is well established that matters
affecting the public interest cannot be made the subject of
stipulation so as to control the court’s action with respect
thereto.”).1
For the reasons explained below, we hold that a spouse
cannot rebut the HRS § 584-4(a)(1) marital presumption of
parentage pursuant to HRS § 584-4(b) by demonstrating by clear
and convincing evidence a lack of consent to the other spouse’s
1

Justice Nakayama opines that this court should not consider this issue
of law because it was not specifically argued by the parties. Opinion of
Nakayama, Section III(B)(1). We respectfully disagree. The parties’
assumption that lack of consent is a permissible method of rebuttal is
tantamount to a stipulation on a question of law.

2

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

artificial insemination procedure.

***

We therefore respectfully do

not agree with Part III(B)(1) of Justice Nakayama’s opinion.

In

addition, the discussion in Part III(B)(2) of her opinion
regarding whether consent existed is not necessary, and we do
not join that part of her opinion.

Therefore, although we

otherwise agree with and join in Justice Nakayama’s opinion, we
respectfully depart from Part III(B).
I.

PRINCIPLES OF STATUTORY INTERPRETATION REQUIRE THIS COURT
TO GIVE EFFECT TO LEGISLATIVE INTENT.
“When construing a statute, our foremost obligation is to

ascertain and give effect to the intention of the legislature,
which is to be obtained primarily from the language contained in
the statute itself.

And we must read statutory language in the

context of the entire statute and construe it in a manner
consistent with its purpose.”

In re Doe, 95 Hawaiʻi 183, 191, 20

P.3d 616, 624 (2001) (citation omitted).
Applying these principles, first, with respect to the
language “contained in the statute itself,” HRS § 584-4 provides
in relevant part as follows:
Presumption of paternity. (a)
natural father of a child if:

A man is presumed to be the

(1) He and the child’s natural mother are or have
been married to each other and the child is born during the
marriage, or within three hundred days after the marriage
is terminated by death, annulment, declaration of
invalidity, or divorce, or after a decree of separation is
entered by a court. . . .
. . . .

3

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

(b)

A presumption under this section may be rebutted in an
appropriate action only by clear and convincing evidence.
If two or more presumptions arise which conflict with each
other, the presumption which on the facts is founded on the
weightier considerations of policy and logic controls. The
presumption is rebutted by a court decree establishing
paternity of the child by another man.

In this case, we are asked to decide whether, pursuant to
HRS § 584-4(b), the marital presumption of parentage under HRS §
584-4(a)(1) can be rebutted based on a lack of consent to
artificial insemination.

Based on “the language contained in

[HRS § 584-4(b)] itself,” the marital presumption can be
rebutted by another HRS § 584-4(a) presumption of parentage if
the other presumption “is founded on the weightier
considerations of policy and logic.”2

The statute itself does

2

The presumptions of parentage adopted by the Legislature other than the
marital presumption of HRS § 584-4(a)(1)(2006), which could rebut the marital
presumption pursuant to HRS § 584-4(b), are as follows:
(2)
Before the child’s birth, he and the child’s natural
mother have attempted to marry each other by a marriage
solemnized in apparent compliance with law, although the
attempted marriage is or could be declared invalid, and:
(A) If the attempted marriage could be
declared invalid only by a court, the child is
born during the attempted marriage, or within
three hundred days after its termination by
death, annulment, declaration of invalidity, or
divorce; or
(B) If the attempted marriage is invalid without a
court order, the child is born within three hundred
days after the termination of cohabitation;
(3)
After the child’s birth, he and the child’s natural
mother have married, or attempted to marry, each other by a
marriage solemnized in apparent compliance with law,
although the attempted marriage is or could be declared
invalid, and:
(continued. . .)

4

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

not contain language indicating that a HRS § 584-4(a)(1) marital
presumption of parentage can be rebutted by a lack of consent to
artificial insemination.

In fact, when the Hawaiʻi State

Legislature enacted HRS § 584-4 in 1975 as part of its adoption
of the 1973 Uniform Parentage Act (the “1973 UPA”), see 1975
Haw. Sess. Laws Act 66, at 115–16, it expressly chose not to
adopt Section 5 of the 1973 UPA regarding the need for a spouse
to consent to artificial insemination.
In 1973, the National Conference of Commissioners on
Uniform State Laws approved and recommended for enactment in all
(continued. . .)
(A) He has acknowledged his paternity of the child
in writing filed with the department of health;
(B) With his consent, he is named as the child’s
mother on the child’s birth certificate; or
(C) He is obligated to support the child under
written voluntary promise or by court order;
(4) While the child is under the age of majority, he
receives the child into his home and openly holds out the
child as his natural child;
(5) Pursuant to section 584-11, he submits to court
ordered genetic testing and the results, as stated in a
report prepared by the testing laboratory, do not exclude
the possibility of his paternity of the child; provided the
testing used has a power of exclusion greater than 99.0 per
cent and a minimum combined paternity index of five hundred
to one; or
(6) A voluntary, written acknowledgment of paternity of
the child signed by him under oath is filed with the
department of health. The department of health shall
prepare a new certificate of birth for the child in
accordance with section 338-21. The voluntary
acknowledgment of paternity by the presumed father filed
with the department of health pursuant to this paragraph
shall be the basis for establishing and enforcing a support
obligation through a judicial proceeding.

5

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

states the 1973 UPA.3

***

The 1973 UPA contained thirty sections, of

which subsections 4(a)(1) and 4(b), as well as section 5, are
relevant to the issue at hand.4
Subsection 4(a)(1) of the 1973 UPA stated:
§ 4. [Presumption of Paternity]
(a) A man is presumed to be the natural father of a
child if:
(1) he and the child’s natural mother are or have
been married to each other and the child is born during the
marriage, or within 300 days after the marriage is
terminated by death, annulment, declaration of invalidity,
or divorce, or after a decree of separation is entered by a
court. . . .

This language is identical to the current language of HRS § 5844(a)(1).
Subsection 4(b) of the 1973 UPA stated:
(b) A presumption under this section may be rebutted in an
appropriate action only by clear and convincing evidence.
If two or more presumptions arise which conflict with each
other, the presumption which on the facts is founded on the
weightier considerations of policy and logic controls. The

3

Unif. Parentage Act (Nat’l Conf. of Comm’rs on Unif. State Laws 1973),
available at
http://www.uniformlaws.org/shared/docs/parentage/upa73_With%20pref%20note.pdf
.
4

The thirty sections were titled: 1. Parent and Child Relationship
Defined, 2. Relationship Not Dependent on Marriage, 3. How Parent and Child
Relationship Established, 4. Presumption of Paternity, 5. Artificial
Insemination, 6. Determination of Father and Child Relationship; Who May
Bring Action; When Action May Be Brought, 7. Statute of Limitations, 8.
Jurisdiction; Venue, 9. Parties, 10. Pre-Trial Proceedings, 11. Blood Tests,
12. Evidence Relating to Paternity, 13. Pre-Trial Recommendations, 14. Civil
Action; Jury, 15. Judgment or Order, 16. Costs, 17. Enforcement of Judgment
or Order, 18. Modification of Judgment or Order, 19. Right to Counsel; Free
Transcript on Appeal, 20. Hearings and Records; Confidentiality, 21. Action
to Declare Mother and Child Relationship, 22. Promise to Render Support, 23.
Birth Records, 24. When Notice of Adoption Proceeding Required, 25.
Proceeding to Terminate Parental Rights, 26. Uniformity of Application and
Construction, 27. Short Title, 28. Severability, 29. Repeal, and 30. Time of
Taking Effect.

6

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

presumption is rebutted by a court decree establishing
paternity of the child by another man.

This language is identical to the current language of HRS § 5844(b).

Section 5 of the 1973 UPA specifically addressed

artificial insemination, however, and stated:
§ 5. [Artificial Insemination]
(a) If, under the supervision of a licensed physician, and
with the consent of her husband, a wife is inseminated
artificially with semen donated by a man not her husband,
the husband is treated in law as if he were the natural
father of a child thereby conceived. The husband’s consent
must be in writing and signed by him and his wife. The
physician shall certify their signatures and the date of
the insemination, and file the husband’s consent with the
[State Department of Health], where it shall be kept
confidential and in a sealed file. However, the
physician’s failure to do so does not affect the father and
child relationship. All papers and records pertaining to
the insemination, whether part of the permanent record of a
court or of a file held by the supervising physician or
elsewhere, are subject to inspection only upon an order of
the court for good cause shown.
(b) The donor of semen provided to a licensed physician for
use in artificial insemination of a married woman other
than the donor’s wife is treated in law as if he were not
the natural father of a child thereby conceived.

(Emphasis added.)
The 1973 UPA was presented to the 1975 Legislature for
possible adoption as House Bill 115.

On H.B. 115, Standing

Committee Report No. 190 of the House Judiciary Committee states
in relevant part:
The purpose of this bill is to enact the Uniform
Parentage Act, with appropriate amendments, additions, and
deletions to meet particular needs in Hawaii, especially in
the areas of procedures, adoption proceedings, and vital
statistics.
The [1973 UPA] is intended to provide substantive
legal equality for all children regardless of the marital
status of their parents. . . .

7

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

Your Committee heard testimony on this bill from
representatives of, among others, the Family Court, the
City and County of Honolulu Corporation Counsel, Child and
Family Service, and the Hawaii Commissioners on Uniform
State Laws. On the basis of informed advice from these
sources, your Committee on Judiciary recommends the
following amendments to H.B. No 115:
1.

Delete all of Sec. -5.

H. Stand. Comm. Rep. No. 190, in 1975 House Journal, at 1019
(emphases added).
Thus, the Hawaiʻi Legislature passed the 1973 UPA, with some
modifications, as Act 66 of 1975.
at 115-26.

1975 Haw. Sess. Laws Act 66,

The Legislature adopted the language of subsections

4(a)(1) and 4(b) of the 1973 UPA verbatim, yet deleted Section 5
concerning artificial insemination and its consent language.5
5

The legislative history of H.B. 115 does not explain why Section 5 was
deleted. Notably, the companion bill to H.B. 115, S.B. 95, prompted the
following testimony by the Hawaii Commission on Uniform State Laws,
specifically addressing consent to artificial insemination in Section 5, as
follows:
Birth by artificial insemination is also treated in
the Parentage Act. State laws conflict as to the parentage
of a child conceived through artificial insemination. In
[the 1973 UPA], the consent of the parents control. If the
parents consent in writing, and the insemination is
supervised by a licensed physician, the husband is treated
at law as the natural father. The physician is required to
obtain the written consent, to certify the signatures, and
file the documents with the State Department of Health.
Artificial insemination becomes, under these conditions,
the same legally as natural insemination by the husband.
Testimony of Patricia K. Putnam, Hawaii Comm’n on Uniform State Laws,
Testimony on S.B. 95, “A BILL RELATING TO THE UNIFORM PARENTAGE ACT[,”]
before the Senate Judiciary Committee, Feb. 5, 1975 (emphasis added).
S.B. 95 did not advance after its hearing in the Senate Judiciary
Committee, while H.B. 115 eventually passed into law. The record of
testimony on H.B. 115 and S.B. 95 in the State Archives is scant. The
archival record shows the Hawaii Commission on Uniform State Laws did not
submit testimony regarding H.B. 115, but the House Standing Committee Report
No. 190 on H.B. 115 refers to testimony submitted by the Hawaii Commission on
Uniform State Laws, suggesting the members of the House Judiciary Committee
(continued. . .)

8

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

As noted, “when construing a statute, our foremost
obligation is to ascertain and give effect to the intention of
the [L]egislature, which is to be obtained primarily from the
language contained in the statute itself.”
at 191, 20 P.3d at 624.

In re Doe, 95 Hawaiʻi

The Legislature rejected Section 5 of

the 1973 UPA and has not later enacted a provision allowing for
the spousal presumption of parentage to be rebutted through lack
of consent to artificial insemination.

Thus, judicial

recognition of this method of rebutting parentage would
constitute adoption of a method expressly rejected by the
Legislature and not “contained in the language of the statute
itself[.]”

Recognition of this method of rebuttal would

therefore violate the initial rule of statutory interpretation.
Second, even if this rule of statutory interpretation and
legislative intent did not control, another cardinal rule of
statutory interpretation is that “we must read statutory
language in the context of the entire statute and construe it in
a manner consistent with its purpose.”

As pointed out earlier,

Standing Committee Report No. 190 of the House Judiciary

(continued. . .)
may have been aware of S.B. 95 testimony. In any event, in passing H.B. 115
into law without Section 5, the Legislature rejected the idea that “consent
of the parents [would] control” with respect to artificial insemination.
Therefore, because the Legislature specifically rejected a requirement of
consent to artificial insemination for a husband to be recognized as the
father of his wife’s child conceived through artificial insemination, we
should not, through the common law, allow lack of consent to rebut the
spousal parentage presumption under HRS § 584-4(a)(1).

9

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

Committee laid out the legislative purpose in adopting the UPA,
which was to provide substantive legal equality for all children
regardless of the marital status of their parents.

In Doe v.

Doe, this court stated:
The substantive legal rights that illegitimate children
were denied in many states included such rights as the
right to intestate succession, the right to benefit from a
statutory cause of action typically accorded to legitimate
children, and the right to be the beneficiary of child
support from the father. For purposes of this discussion,
the UPA and, by extension, chapter 584 are largely
concerned with establishing a means by which to identify
the person (usually the father) against whom these rights
may be asserted. In short, it is to ensure that every
child, to the extent possible, has an identifiable legal
father. Although this goal will usually overlap with the
desire of a child to know the identity of his or her
biological father, the two are not always the same.

99 Hawaiʻi 1, 8, 52 P.3d 255, 262 (2002) (internal citations
omitted).
Thus, as recognized in Doe, although in the context of
providing equality to children born outside a marriage, the
legislative purpose of Chapter 584, including HRS § 584-4, was
“to ensure that every child, to the extent possible,” has
another parent to provide the child with the rights to intestate
succession, to benefit from statutory causes of action afforded
to children of married parents, and to financial support.
Along these lines, the only specific methods for rebutting
a parentage presumption delineated by HRS § 584-4(b) involve a
parent under one presumption being replaced by a parent under
another presumption or as determined by a court decree.

The

structure of HRS § 584-4(b) therefore supports our observation
10

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

in Doe that the purpose of HRS Chapter 584 is to provide a child
with a second parent obligated to provide the child with
financial benefits.
In this case, LC seeks to disestablish parentage and
thereby eliminate financial obligations to the child.

Allowing

a spouse to rebut parentage based on a lack of consent to
artificial insemination would eliminate financial benefits to
the child from the spouse presumed to be a parent, which is
inconsistent with the legislative purpose of Chapter 584 “to
ensure that every child, to the extent possible,” has another
parent to provide the child with these financial benefits.

Such

a holding would therefore violate another cardinal rule of
statutory interpretation.
Thus, based on fundamental principles of statutory
interpretation, lack of consent to artificial insemination is
not a method of rebutting the marital presumption of parentage
under HRS § 584-4(a).

Although these principles of statutory

interpretation control and further analysis is therefore not
required, the factors below also dictate against adoption of
this method of rebutting the marital presumption of parentage.
II.

SECTION 5 OF THE UPA, WHICH THE LEGISLATURE REJECTED, WAS
IN ANY EVENT NOT INTENDED TO PROVIDE A METHOD OF REBUTTING
PARENTAGE.
Even if the Legislature had adopted Section 5 of the 1973

UPA, which it did not, the purpose of that rejected artificial
11

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

insemination provision was not to provide a method of rebutting
or disestablishing the presumption of parentage under Section
4(a)(1).

Rather, the purpose of Section 5 of the 1973 UPA was

to provide another method of establishing paternity when no
presumption under Section 4 existed to provide a father to the
child.
As stated in the Prefatory Note to the 1973 UPA, the 1973
UPA first set up “a network of presumptions which cover cases in
which proof of external circumstances (in the simplest case,
marriage between the mother and a man) indicate a particular man
to be the probable father. . . .

All presumptions of paternity

are rebuttable in appropriate circumstances.”
Prefatory Note ¶ 10.

1973 UPA,

These presumptions based on proof of

external circumstances were reflected in the 1973 UPA Section
4(a) presumptions, which were adopted verbatim as HRS § 5844(a), and remain in effect today.

The Prefatory Note goes on to

state, however:
The ascertainment of paternity when no external
circumstances presumptively point to a particular man as
the father are [sic] the next major function of the Act.

1973 UPA, Prefatory Note ¶ 11.

That next “major function of the

Act” began with Section 5, governing artificial insemination.
Therefore, the intent of the consent provision of Section
5, which was the section following the “external circumstances
presumptions” of Section 4(a) in the 1973 UPA, was not to
12

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

provide a mechanism to rebut or disestablish a presumption of
parentage under Section 4(a)(1).

Rather, the intent of Section

5 was to provide another method to establish paternity when no
“external circumstances” provided a presumption of paternity
under Section 4(a).

Under the facts of this case, this method

of establishing parentage is not necessary due to the
applicability of the marital presumption of parentage under HRS
§ 584-4(a)(1).
III. ADOPTION OF A COMMON LAW RULE BASED ON LACK OF CONSENT TO
ARTIFICIAL INSEMINATION OPENS THE DOOR TO OTHER METHODS OF
REBUTTAL BASED ON LACK OF CONSENT.
Recognition of a common law6 rule allowing a spouse to rebut
parentage based on a lack of consent to artificial insemination
would open the door to arguments from spouses who did not
consent to other methods or causes of impregnation to seek
relief from parental obligations.

There are various other

methods of impregnation as to which a spouse might not consent.
For example, pregnancy could result from a negligent or
intentional failure of a contraceptive method, a negligent or
intentional misrepresentation regarding infertility status, or
even sexual assault by a third person.

If we were to allow a

spouse to rebut parentage through lack of consent to a manner of
6

Black’s Law Dictionary defines “common law” as “[t]he body of law
derived from judicial decisions, rather than from statutes or
constitutions. . . .” “Common Law,” Black’s Law Dictionary 334 (10th ed.
2014).

13

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

conception as a matter of common law, the slippery slope would
be opened to similar arguments for other methods of impregnation
to which a spouse did not consent.7
This concern would not arise if a specific method of
disestablishing parentage is set out by the Legislature.

As

explained in Section I, supra, our opinion that lack of consent
to artificial insemination cannot be a method of rebutting the
marital presumption of parentage is fundamentally based on the
Legislature’s express rejection of Section 5 of the 1973 UPA.
If the Legislature chooses to recognize lack of consent to
artificial insemination as a method of rebutting parentage, it
could also consider the concerns we express in this opinion.8
7

For this reason and also because the Legislature did not make a
distinction regarding the means by which a parentage presumption can be
rebutted based on how a child is brought into being, we respectfully disagree
with Justice Nakayama that issues of consent in situations in which sexual
intercourse results in the birth of a child require a different analysis
under Chapter 584. Opinion of Nakayama, J., at n.21.
8

Although we need not decide the issue at this time, it appears the
marital presumption of parentage of a child conceived through artificial
insemination could be rebutted under HRS § 584-4(b) through clear and
convincing evidence of the existence of another common law “parent,” such as
a “de facto,” “psychological,” or “intended” “parent[,]” and/or evidence that
disestablishment of parentage would be in the best interests of the child.
We therefore respectfully disagree with Justice Nakayama’s opinion that “the
Majority does not provide any meaningful way to rebut the marital presumption
where only one presumption arises, and where an artificial insemination
procedure leads to the birth of a child.” Opinion of Nakayama, J., Section
III(B)(1)(b). Parentage can also be terminated through HRS Chapter 587A
(Supp. 2010), the Child Protective Act. In addition, the issue here is
whether lack of consent to artificial insemination is a method of rebutting
the marital presumption of parentage. The Legislature’s adoption in HRS §
584-4(b) of a “clear and convincing evidence” burden of proof to rebut a
parentage presumption does not affect the preliminary question of whether it
rejected lack of consent to artificial insemination as a method of rebuttal.
Opinion of Nakayama, J., Section III(B)(1)(b).

14

***

IV.

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

ADOPTION OF A COMMON LAW RULE BASED ON LACK OF CONSENT TO
ARTIFICIAL INSEMINATION ALSO RAISES ISSUES WITH RESPECT TO
THE SPOUSAL PRIVILEGE.
Recognition of lack of consent as a method of rebutting the

marital presumption of parentage also raises significant issues
regarding the spousal privilege under the Hawaiʻi Rules of
Evidence.

Determining whether a spouse consented may well

involve inquiries into confidential marital communications
between spouses, as happened in this case.
Rule 505 of the Hawaiʻi Rules of Evidence regarding the
“Spousal privilege” provides as follows:
a) Criminal proceedings. In a criminal proceeding, the
spouse of the accused has a privilege not to testify
against the accused. This privilege may be claimed only by
the spouse who is called to testify.
b)

Confidential marital communications; all proceedings.

(1) Definition. A “confidential marital
communication” is a private communication between spouses
that is not intended for disclosure to any other person.
(2) Either party to a confidential marital
communication has a privilege to refuse to disclose and to
prevent any other person from disclosing that
communication.
(c) Exceptions. There is no privilege under this
rule (1) in proceedings in which one spouse is charged with
a crime against the person or property of (A) the other,
(B) a child of either, (C) a third person residing in the
household of either, or (D) a third person committed in the
course of committing a crime against any of these, or (2)
as to matters occurring prior to the marriage.

(Emphases added.)
We have held that “[m]arital communications are presumed to
be confidential,” although “the presumption may be overcome by

15

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

proof of facts showing they were not intended to be
confidential.”

State v. Levi, 67 Haw. 247, 250, 686 P.2d 9, 11

(1984) (citing Pereira v. United States, 347 U.S. 1, 6 (1954);
Blau v. United States, 340 U.S. 332, 333 (1951)).

The presence

of a third party, for example, “negates any presumption of
privacy.”

Levi, 67 Haw. at 250, 686 P.2d at 11 (citing

Picciurro v. United States, 250 F.2d 585, 589 (8th Cir. 1958)).
No facts negating the presumption of confidentiality appear
to have been present in this case, but the spousal privilege was
in any event not asserted.

The family court engaged in an

excruciating analysis of multiple conflicting communications in
an attempt to discern whether LC consented by clear and
convincing evidence to MG’s artificial insemination procedure.
The family court’s findings are therefore replete with
discussions of communications between the spouses during their
marriage, some of which are referred to in Justice Nakayama’s
opinion, which appear to have been intended to be confidential.
Had the spousal privilege been asserted by either spouse in this
case, the family court would have had to determine whether the
communications were intended to be confidential and therefore
subject to the spousal privilege.
If the communications were found subject to the spousal
privilege, the family court would have had to determine whether
consent existed without such evidence, making it more difficult
16

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

to ascertain the true intent of LC with respect to the consent
issue.

The same spousal privilege issue could well arise in

cases concerning other methods of impregnation, discussed
earlier, as to which a spouse might not consent.
We do not find persuasive the New Jersey and South Carolina
cases cited in Justice Nakayama’s opinion, K.S. v. G.S., 440
A.2d 64 (N.J. Super. Ct. Ch. Div. 1981), and In re Baby Doe, 353
S.E.2d 877 (S.C. 1987), which are cited as jurisdictions that
recognize lack of consent to artificial insemination in absence
of a statute.

New Jersey recognizes a clear exception to the

spousal privilege in lawsuits between the spouses, N.J. Code §
2A:84A-22 (1992), and South Carolina recognizes an exception to
the spousal privilege for a proceeding concerning child neglect.
S.C. Code of Laws § 19-11-30 (2012).

Therefore, in addition to

it being unclear whether those states’ legislatures expressly
rejected Section 5 of the 1973 UPA and, if so, why, those states
do not share the spousal privilege concern implicated here.
Thus, recognition of lack of consent as a method of rebutting
the marital presumption of parentage raises serious policy and
practical concerns arising out of the spousal privilege.

17

***

V.

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

ADOPTION OF A COMMON LAW RULE ALLOWING THE MARITAL
PRESUMPTON OF PARENTAGE TO BE REBUTTED BASED ON LACK OF
CONSENT TO ARTIFICIAL INSEMINATION DOES NOT FACTOR IN THE
BEST INTERESTS OF THE CHILD.
Finally, recognition of a common law rule allowing a spouse

to rebut the marital presumption of parentage based on a lack of
consent to artificial insemination does not consider the best
interests of the child conceived through artificial
insemination.

HRS § 584-15(c) provides as follows in regard to

a judgment or order in a parentage case under HRS Chapter 584:
The judgment or order may contain any other provision
directed against the appropriate party to the proceeding,
concerning the duty of support, the custody and
guardianship of the child, visitation privileges with the
child, the furnishing of bond or other security for the
payment of the judgment, or any other matter in the best
interest of the child.

(Emphasis added.)
The best interests of the child conceived through
artificial insemination are implicated in the legislative
purpose of HRS Chapter 584 discussed in Section I above, that a
child have two parents to provide financial benefits.

It is

also important to point out, however, that allowing rebuttal of
the marital presumption of parentage based on a lack of consent
to artificial insemination would not prohibit a spouse from
rebutting parentage during a marriage in which the child

18

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

conceived by artificial insemination continues to live in the
marital home.9
In addition to the financial benefit implications, allowing
a spouse to rebut parentage of a child conceived through
artificial insemination during an intact marriage could have
consequences well beyond the financial aspects of a child’s best
interests, such as the child’s sense of belonging and
acceptance.
Therefore, allowing a spouse to rebut parentage based on
lack of consent to artificial insemination does not give due
consideration to the best interests of the child.
V.

CONCLUSION
For all of these reasons, we hold that a spouse cannot

rebut the marital presumption of parentage under HRS § 5844(a)(1) pursuant to HRS § 584-4(b) by demonstrating by clear and
9

With respect to financial benefits, allowing a spouse to rebut
parentage under such circumstances would also circumvent the intent of HRS §
572-24 (2006), which otherwise requires a spouse to provide financial support
to the family:
Spousal liabilities. Both spouses of a marriage, whether
married in this State or in some other jurisdiction, and
residing in this, shall be bound to maintain, provide for,
and support one another during marriage, and shall be
liable for all debts contracted by one another for
necessaries for themselves, one another, or their family
during marriage; provided that when a support or
maintenance obligation, however designated, is imposed upon
a spouse under chapter 580 or any other law, the amount of
such obligation shall be determined by the appropriate
court on the basis of factors enumerated in section 58047(a).
(Emphases added.)

19

***

FOR PUBLICATION IN WEST’S HAWAIʻI REPORTS AND THE PACIFIC REPORTER

***

convincing evidence a lack of consent to the artificial
insemination procedure that resulted in the conception and birth
of the child.
/s/ Sabrina S. McKenna
/s/ Richard W. Pollack
/s/ Michael D. Wilson

20

